                                                                             Office of Inspector General
   DEPARTMENT OF HEALTH & HUMAN SERVICES                                     Office of Audit Services



                                                                             Region VII
                                                                             601 East 12th Street
                                                                             Room 0429
                                                                             Kansas City, Missouri 64106


January 4, 2011

Report Number: A-07-10-00343

Mr. Ricardo Rivera
President
Cooperativa de Seguros de Vida de Puerto Rico
400 Americo Miranda Avenue
Rio Piedras, PR 00927

Dear Mr. Rivera:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of the Qualified Pension Plan at Cooperativa de
Seguros de Vida de Puerto Rico, A Terminated Medicare Contractor, for the Period
January 1, 2007, to December 31, 2008. We will forward a copy of this report to the HHS
action official noted on the following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me at
(816) 426-3591, or contact Jenenne Tambke, Audit Manager, at (573) 893-8338, extension 21, or
through email at Jenenne.Tambke@oig.hhs.gov. Please refer to report number A-07-10-00343
in all correspondence.

                                             Sincerely,



                                             /Patrick J. Cogley/
                                             Regional Inspector General
                                               for Audit Services

Enclosure
Page 2 – Mr. Ricardo Rivera

Direct Reply to HHS Action Official:

Ms. Deborah Taylor
Acting Director & Chief Financial Officer
Office of Financial Management
Centers for Medicare & Medicaid Services
Mail Stop C3-01-24
7500 Security Boulevard
Baltimore, MD 21244-1850
  Department of Health & Human Services
            OFFICE OF
       INSPECTOR GENERAL


REVIEW OF THE QUALIFIED PENSION
PLAN AT COOPERATIVA DE SEGUROS
   DE VIDA DE PUERTO RICO, A
     TERMINATED MEDICARE
  CONTRACTOR, FOR THE PERIOD
      JANUARY 1, 2007, TO
       DECEMBER 31, 2008




                       Daniel R. Levinson
                        Inspector General

                         January 2011
                         A-07-10-00343
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Cooperativa de Seguros de Vida de Puerto Rico (COSVI) administered Medicare Part A
operations under cost reimbursement contracts with the Centers for Medicare & Medicaid
Services (CMS) until the contractual relationship was terminated February 28, 2009. The
effective closing date for the Medicare segment was December 31, 2008.

Since its inception, Medicare has paid a portion of contractors’ contributions to their pension
plans. These contributions are allowable Medicare costs subject to the criteria set forth in the
Federal Acquisition Regulation, Cost Accounting Standards (CAS), and Medicare contracts.
Furthermore, in situations such as contract terminations, the Medicare contracts require
contractors to identify excess Medicare pension assets/liabilities, in accordance with CAS 413.

Pension Segmentation

Beginning with fiscal year 1988, CMS incorporated segmentation requirements into the
Medicare contracts to ensure conformance with CAS 413. The Medicare contracts define a
segment and specify the methodology for the identification and initial allocation of pension
assets to the segment. Additionally, the contracts require Medicare segment assets to be updated
for each year after the initial allocation in accordance with CAS 412 and 413.

Upon the termination of its Medicare contract, COSVI identified Medicare’s share of the
Medicare segment excess pension liabilities to be $663,995.

Prior Pension Segmentation Audit Report

We performed a prior pension segmentation audit at COSVI (A-07-08-00271, issued
July 10, 2009), which brought the Medicare segment pension assets to January 1, 2007. The
prior audit found that COSVI understated the Medicare segment pension assets by $858,062 as
of January 1, 2007. We recommended that COSVI increase its Medicare segment pension assets
by $858,062 and, as a result, recognize $1,499,943 as the Medicare segment pension assets as of
January 1, 2007.

OBJECTIVE

Our objective was to determine whether COSVI complied with Federal requirements and the
Medicare contracts’ pension segmentation requirements when:

   •   implementing the prior audit recommendation,

   •   updating the Medicare segment’s pension assets from January 1, 2007, to
       December 31, 2008, and




                                                 i
   •   determining Medicare’s share of the Medicare segment excess pension assets/liabilities as
       a result of the termination of the Medicare contract.

SUMMARY OF FINDINGS

COSVI properly implemented the prior audit recommendation; however, COSVI did not always
comply with the Medicare contracts’ pension segmentation requirements when updating
Medicare segment assets from January 1, 2007, to December 31, 2008. COSVI identified
Medicare segment pension assets of $1,264,107; however, we determined that the Medicare
segment pension assets were $1,472,521 as of December 31, 2008. As a result, COSVI
understated the Medicare segment pension assets by $208,414. The understatement occurred
primarily because COSVI understated the Medicare segment’s contributions and transferred
prepayment credits.

In addition, COSVI did not fully comply with Federal requirements in its calculation of
Medicare’s share of the Medicare segment excess pension liabilities associated with the
termination of its Medicare contract. COSVI computed Medicare’s share of the Medicare
segment excess pension liabilities to be $663,995; however, we determined that Medicare’s share
of the Medicare segment’s excess pension liabilities was $455,718 as of December 31, 2008.
Thus, COSVI overstated Medicare’s share of excess liabilities, due to the termination of the
Medicare contract, by $208,277.

RECOMMENDATIONS

We recommend that COSVI:

   •   increase Medicare segment pension assets as of December 31, 2008, by $208,414 and

   •   decrease Medicare’s share of the Medicare segment’s excess pension liabilities by
       $208,277, and thereby recognize $455,718 as Medicare’s portion.

AUDITEE COMMENTS

In written comments on our draft report, COSVI concurred with our recommendations.
COSVI’s comments are included in their entirety as Appendix C.




                                               ii
                                                  TABLE OF CONTENTS

                                                                                                                                       Page

INTRODUCTION......................................................................................................................... 1

          BACKGROUND ................................................................................................................ 1
              Cooperativa de Seguros de Vida de Puerto Rico and Medicare ............................. 1
              Federal Requirements ............................................................................................. 1
              Pension Segmentation ............................................................................................. 1
              Prior Pension Segmentation Audit Report .............................................................. 1

          OBJECTIVE, SCOPE, AND METHODOLOGY .............................................................. 2
               Objective ................................................................................................................. 2
               Scope ....................................................................................................................... 2
               Methodology ........................................................................................................... 2

FINDINGS AND RECOMMENDATIONS ............................................................................... 3

          PRIOR AUDIT RECOMMENDATION ............................................................................ 4

          UPDATE OF MEDICARE SEGMENT PENSION ASSETS............................................ 4
              Federal Requirements ............................................................................................. 4
              Contributions and Transferred Prepayment Credits Understated ........................... 5
              Mandatory Employee Contributions Overstated .................................................... 5
              Net Transfers Understated ...................................................................................... 5
              Earnings, Net Expenses Understated ...................................................................... 6

          MEDICARE SEGMENT EXCESS PENSION LIABILITIES .......................................... 6
               Federal Requirements ............................................................................................. 6
               Medicare Segment Excess Pension Liabilities as of December 31, 2008 .............. 7
               Medicare’s Share of Excess Pension Liabilities as of December 31, 2008 ............ 7

          RECOMMENDATIONS .................................................................................................... 8

          AUDITEE COMMENTS.................................................................................................... 8

APPENDIXES

    A: STATEMENT OF MARKET VALUE OF PENSION ASSETS FOR COOPERATIVA
       DE SEGUROS DE VIDA DE PUERTO RICO FOR THE PERIOD JANUARY 1, 2007,
       TO DECEMBER 31, 2008

    B: CALCULATION OF AGGREGATE MEDICARE PERCENTAGE

    C: AUDITEE COMMENTS



                                                                     iii
           Glossary of Abbreviations and Acronyms

COSVI   Cooperativa de Seguros de Vida de Puerto Rico
CAS     Cost Accounting Standards
CMS     Centers for Medicare & Medicaid Services
FAR     Federal Acquisition Regulation
WAV     weighted average value




                               iv
                                       INTRODUCTION

BACKGROUND

Cooperativa de Seguros de Vida de Puerto Rico and Medicare

Cooperativa de Seguros de Vida de Puerto Rico (COSVI) administered Medicare Part A
operations under cost reimbursement contracts with the Centers for Medicare & Medicaid
Services (CMS) until the contractual relationship was terminated February 28, 2009. The
effective closing date for the Medicare segment was December 31, 2008.

Since its inception, Medicare has paid a portion of contractors’ contributions to their pension
plans. These contributions are allowable Medicare costs subject to the criteria set forth in the
Federal Acquisition Regulation (FAR), Cost Accounting Standards (CAS), and Medicare
contracts. Furthermore, in situations such as contract terminations, the Medicare contract
requires contractors to identify excess Medicare pension assets/liabilities, in accordance with
CAS 413.

Federal Requirements

CAS 412 addresses the determination and measurement of pension cost components. It also
addresses the assignment of pension costs to appropriate accounting periods.

CAS 413 addresses the valuation of pension assets, allocation of pension costs to segments of an
organization, adjustment of pension costs for actuarial gains and losses, and assignment of gains
and losses to cost accounting periods. CAS 413 also addresses the determination of segment
assets and liabilities in the event of contract terminations, segment closings, or pension plan
terminations.

Pension Segmentation

CMS incorporated CAS 412 and 413 into the Medicare contracts effective October 1, 1980.
Beginning with fiscal year 1988, CMS incorporated segmentation requirements into the
Medicare contracts. The Medicare contracts define a segment and specify the methodology for
the identification and initial allocation of pension assets to the segment. The contracts require
Medicare segment assets to be updated for each year after the initial allocation in accordance
with CAS 412 and 413. In claiming costs, contractors must follow cost reimbursement
principles contained in the FAR, CAS, and the Medicare contracts.

Upon the termination of its Medicare contract, COSVI identified Medicare’s share of the
Medicare segment excess pension liabilities to be $663,995.

Prior Pension Segmentation Audit Report

We performed a prior pension segmentation audit at COSVI (A-07-08-00271, issued
July 10, 2009), which brought the Medicare segment pension assets to January 1, 2007. The



                                                 1
prior audit found that COSVI understated the Medicare segment pension assets by $858,062 as
of January 1, 2007. We recommended that COSVI increase its Medicare segment pension assets
by $858,062 and, as a result, recognize $1,499,943 as the Medicare segment pension assets as of
January 1, 2007.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether COSVI complied with Federal requirements and the
Medicare contracts’ pension segmentation requirements when:

   •    implementing the prior audit recommendation,

   •    updating the Medicare segment’s pension assets from January 1, 2007, to
        December 31, 2008, and

   •    determining Medicare’s share of the Medicare segment excess pension assets/liabilities as
        a result of the termination of the Medicare contract.

Scope

We reviewed COSVI’s implementation of the prior audit recommendation; identification of its
Medicare segment; update of Medicare segment assets from January 1, 2007, to
December 31, 2008; and the Medicare segment closing calculation as of December 31, 2008.

Achieving our objective did not require us to review COSVI’s overall internal control structure.
However, we reviewed controls relating to the implementation of the prior audit
recommendation, identification of the Medicare segment, the update of the Medicare segment’s
assets, and the Medicare segment closing calculation to ensure adherence to the Medicare
contracts, CAS 412, and CAS 413.

We performed fieldwork in our Jefferson City, Missouri, field office from January through
March 2010.

Methodology

To accomplish our objective, we took the following steps:

   •     We reviewed the applicable portions of the FAR, CAS, and Medicare contract.

   •     We reviewed the information prepared by COSVI’s actuarial consulting firms. Prior to
         our review, COSVI engaged an actuarial consulting firm to analyze and develop its
         Medicare segment pension asset accounting. This information, as well as information
         prepared by COSVI’s customary actuary, included the pension plan’s assets, liabilities,



                                                2
        normal costs, contributions, benefit payments, investment earnings, and administrative
        expenses. We used this information to calculate the Medicare segment assets.

   •    We reviewed the Medicare segment closing calculation prepared by COSVI’s
        customary actuarial consulting firm.

   •    We obtained and reviewed the pension plan documents and Department of
        Labor/Internal Revenue Service Forms 5500 used in calculating the Medicare segment
        assets.

   •    We interviewed COSVI staff responsible for identifying the Medicare segment to
        determine whether the segment was properly identified in accordance with the Medicare
        contracts.

   •    We reviewed COSVI’s accounting records to verify the segment identification and
        benefit payments made to the Medicare segment.

   •    We reviewed the prior segmentation audit performed at COSVI (A-07-08-00271, issued
        July 10, 2009) to determine the beginning market value of assets.

   •    We reviewed controls relating to the segment closing adjustment as of
        December 31, 2008.

   •    We provided the CMS Office of the Actuary with the actuarial information necessary
        for it to calculate the Medicare segment pension assets and the Medicare segment
        excess pension liabilities as of December 31, 2008.

   •    We reviewed the CMS actuaries’ methodology and calculations.

We performed this review in conjunction with our audit of COSVI’s pension costs claimed for
Medicare reimbursement (A-07-10-00342) and used the information obtained during that audit in
this review.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

COSVI properly implemented the prior audit recommendation; however, COSVI did not always
comply with the Medicare contracts’ pension segmentation requirements when updating
Medicare segment assets from January 1, 2007, to December 31, 2008. COSVI identified
Medicare segment pension assets of $1,264,107; however, we determined that the Medicare
segment pension assets were $1,472,521 as of December 31, 2008. As a result, COSVI


                                               3
understated the Medicare segment pension assets by $208,414. The understatement occurred
primarily because COSVI understated the Medicare segment’s contributions and transferred
prepayment credits.

In addition, COSVI did not fully comply with Federal requirements in its calculation of
Medicare’s share of the Medicare segment excess pension liabilities associated with the
termination of its Medicare contract. COSVI computed Medicare’s share of the Medicare
segment excess pension liabilities to be $663,995; however, we determined that Medicare’s share
of the Medicare segment’s excess pension liabilities was $455,718 as of December 31, 2008.
Thus, COSVI overstated Medicare’s share of excess liabilities, due to the termination of the
Medicare contract, by $208,277.

PRIOR AUDIT RECOMMENDATION

COSVI properly implemented the recommendation from the prior segmentation report
(A-07-08-00271, issued July 10, 2009), which recommended that COSVI identify $1,499,943 as
the Medicare segment pension assets as of January 1, 2007.

UPDATE OF MEDICARE SEGMENT PENSION ASSETS

Federal Requirements

The Medicare contracts state that “… the pension assets allocated to each Medicare Segment
shall be adjusted in accordance with CAS 413.50(c)(7).” CAS 413.50(c)(7) requires that the
asset base be adjusted by contributions, unfunded accruals, income, benefit payments, and
expenses. For plan years beginning after March 30, 1995, the CAS requires investment income
and expenses to be allocated among segments based on the ratio of the segment’s weighted
average value (WAV) of assets to total company WAV of assets.

In addition, CAS 413.50(c)(8) requires an adjustment to be made for transfers (participants who
enter or leave the segment) if the transfers materially affect the segment’s ratio of pension plan
assets to actuarial accrued liabilities. For plan years beginning after March 30, 1995, the CAS
requires that the amount of assets transferred equal the actuarial accrued liabilities as determined
using the accrued benefit cost method.

Furthermore, CAS 412.50(a)(4) requires that contributions in excess of the pension cost assigned
to the period be recognized as prepayment credits and accumulated at the assumed valuation
interest rate until applied to future period costs. Prepayment credits that have not been applied to
fund pension costs are excluded from the value of assets used to compute pension costs.

Appendix A presents details of the Medicare segment’s pension assets from January 1, 2007, to
December 31, 2008, as determined during our audit. Table 1 summarizes the audit adjustments
required to update Medicare segment pension assets in accordance with Federal requirements.




                                                 4
      Table 1: Summary of Audit Adjustments in Updating Medicare Segment Assets
                                                  Per Audit  Per COSVI Difference
Update of Medicare Segment Assets
 Contributions and Transferred Prepayment Credits   $494,736     $355,373   $139,363
 Mandatory Employee Contributions                     88,606       89,818     (1,212)
 Transfers                                         (161,024)    (230,003)      68,979
 Earnings, Net Expenses                              139,422      138,138       1,284
Understatement of Medicare Segment Assets                                   $208,414

Contributions and Transferred Prepayment Credits Understated

COSVI understated contributions and transferred prepayment credits by $139,363 for the
Medicare segment. The understatement occurred primarily because COSVI used an understated
2008 pension cost in transferring prepayment credits to the Medicare segment.

The audited contributions and transferred prepayment credits are based on the assignable pension
costs. In compliance with the CAS, we applied prepayment credits first to current-year
assignable pension costs (because the credits were available at the beginning of the year) and
then updated any remaining credits with interest to the next measurement (valuation) date. We
then allocated contributions to assigned pension costs, as needed, as of the date of deposit.

A comparison of COSVI’s and our calculations of Medicare segment contributions and
transferred prepayment credits appears in Table 2.

                        Table 2: Comparison of Medicare Segment
                    Contributions and Transferred Prepayment Credits
                      Year Per Audit      Per COSVI      Difference
                     2007       $217,643      $215,657        $1,986
                     2008        277,093        139,716      137,377
                    Total       $494,736      $355,373      $139,363

Mandatory Employee Contributions Overstated

COSVI overstated mandatory employee contributions for the Medicare segment by $1,212. The
overstatement occurred because COSVI’s asset update did not consider actual employee
mandatory contributions for 2008. Rather, COSVI incorrectly used projected employee
mandatory contributions for that year. In our audited update, we used actual employee
mandatory contributions.

Net Transfers Understated

COSVI understated the participant transfer adjustments in its update of Medicare segment assets
by $68,979. COSVI made adjustments for transfers in its update of segment assets; however,
COSVI incorrectly identified the participants who transferred out of the segment. In addition,



                                               5
COSVI did not use an accrued benefit cost method liability as the basis to make the asset transfer
adjustment as required by the CAS.

Earnings, Net Expenses Understated

COSVI understated investment earnings, less administrative expenses, by $1,284 for the
Medicare segment, because it used incorrect contributions and transferred prepayment credits,
mandatory employee contributions, and net transfer amounts (all previously discussed) to
develop the Medicare segment pension asset base. In our audited update, we allocated earnings,
net expenses based on the applicable CAS requirements.

MEDICARE SEGMENT EXCESS PENSION LIABILITIES

Federal Requirements

Medicare Contracts

In the event of a contract termination, the Medicare contracts require contractors to follow the
segment closing provision of the CAS. Furthermore, in situations such as contract terminations,
the Medicare contracts require contractors to identify excess Medicare pension liabilities in
accordance with CAS 413.

Cost Accounting Standards

In 1980, CMS renegotiated the Medicare contracts and expressly incorporated CAS 412 and 413
into the contracts beginning October 1, 1980.

Contract terminations and segment closings are addressed by CAS 413.50(c)(12), which states:

       If a segment is closed, if there is a pension plan termination, or if there is a
       curtailment of benefits, the contractor shall determine the difference between the
       actuarial liability for the segment and the market value of the assets allocated to
       the segment, irrespective of whether or not the pension plan is terminated. The
       difference between the market value of the assets and the actuarial accrued
       liability for the segment represents an adjustment of previously-determined
       pension costs.

       (i) The determination of the actuarial accrued liability shall be made using the
       accrued benefit cost method. The actuarial assumptions employed shall be
       consistent with the current and prior long term assumptions used in the
       measurement of pension costs ….

       (ii) … The market value of the assets shall be reduced by the accumulated value
       of prepayment credits, if any. Conversely, the market value of assets shall be
       increased by the current value of any unfunded actuarial liability separately
       identified and maintained in accordance with 9904.412-50(a)(2).



                                                6
       (iii) The calculation of the difference between the market value of the assets and
       the actuarial accrued liability shall be made as of the date of the event (e.g.,
       contract termination, plan amendment, plant closure) that caused the closing of
       the segment, pension plan termination, or curtailment of benefits. If such a date is
       not readily determinable, or if its use can result in an inequitable calculation, the
       contracting parties shall agree on an appropriate date.

Medicare Segment Excess Pension Liabilities as of December 31, 2008

COSVI identified $663,995 as the Medicare segment’s excess pension liabilities as of
December 31, 2008. However, we calculated the excess pension liabilities to be $455,718 as of
that date. Thus, COSVI overstated excess pension liabilities by $208,277. The overstatement
occurred because COSVI did not comply fully comply with Federal requirements in its
calculation of Medicare segment excess pension liabilities. Specifically, COSVI understated the
segment’s final assets (as previously discussed) and used an incorrect amount of accumulated
unfunded pension costs. Table 3 summarizes the differences between COSVI’s and our
calculations.

           Table 3: Adjustments to Medicare Segment Excess Pension Liabilities
                                                    Per Audit Per COSVI Difference
Medicare segment assets as of December 31, 2008      $1,472,521  $1,264,107    $208,414
Accrued liabilities of segment participants         (2,013,731) (2,013,731)           0
Accumulated unfunded pension costs                       85,492      85,629       (137)
Medicare segment excess pension liabilities           (455,718)   (663,995)
Overstatement of Medicare Segment Excess Liabilities                           $208,277

Medicare’s Share of Excess Pension Liabilities as of December 31, 2008

Federal Requirements

The methodology for determining the Federal Government’s share of excess pension liabilities is
addressed by CAS 413.50(c)(12)(vi), which states:

       The Government’s share of the adjustment amount determined for a segment shall
       be the product of the adjustment amount and a fraction. The adjustment amount
       shall be reduced for any excise tax imposed upon assets withdrawn from the
       funding agency of a qualified pension plan. The numerator of such fraction shall
       be the sum of the pension plan costs allocated to all contracts and subcontracts
       (including Foreign Military Sales) subject to this Standard during a period of
       years representative of the Government’s participation in the pension plan. The
       denominator of such fraction shall be the total pension costs assigned to cost
       accounting periods during those same years. This amount shall represent an
       adjustment of contract prices or cost allowance as appropriate. The adjustment



                                                7
       may be recognized by modifying a single contract, several but not all contracts, or
       all contracts, or by use of any other suitable technique. [Emphasis added.]

Medicare’s Share of the Excess Pension Liabilities Overstated

COSVI did not comply with the Medicare contract in determining Medicare’s share of the excess
pension liabilities associated with the termination of the Medicare contract as of
December 31, 2008. COSVI computed $663,995 as Medicare’s share of the Medicare segment
excess pension liabilities as of that date; however, we determined that Medicare’s share was
$455,718. Thus, COSVI overstated Medicare’s share by $208,277. The overstatement occurred
because COSVI overstated the Medicare segment’s excess pension liabilities (as previously
discussed).

In accordance with CAS 413.50(c)(12)(vi), we calculated the aggregate Medicare percentage
using the Medicare segment pension costs developed during both the previous and the current
pension audits. Appendix B shows our calculation of the Medicare segment’s aggregate
Medicare percentage; Table 4 shows COSVI’s and our calculations of Medicare’s share of the
excess liabilities.

                 Table 4: Medicare’s Share of Excess Liabilities (Adjustment)
                          Excess Medicare        Aggregate Medicare       Excess Liabilities
                      Segment Liabilities (A)       Percentage (B)          Attributable to
                                                                          Medicare (A x B)
Per Audit                          ($455,718)                    100.00%          ($455,718)
Per COSVI                           (663,995)                    100.00%           (663,995)
Difference                                                                          $208,277

RECOMMENDATIONS

We recommend that COSVI:

   •   increase Medicare segment pension assets as of December 31, 2008, by $208,414, and

   •   decrease Medicare’s share of the Medicare segment’s excess pension liabilities by
       $208,277, and thereby recognize $455,718 as Medicare’s portion.

AUDITEE COMMENTS

In written comments on our draft report, COSVI concurred with our recommendations.
COSVI’s comments are included in their entirety as Appendix C.




                                                8
APPENDIXES
                                                                                                                         Page 1 01'2
                     APPENDIX A: STATEMENT OF MARKET VALUE OF PENSION ASSETS FOR 

                            COOPERATIV A DE SEGUROS DE VIDA DE PUERTO RICO 

                           FOR THE PERIOD JANUARY 1,2007, TO DECEMBER 31,2008 


                   Description 	                          Total Company             "Other" Segment           Medicare Segment

      Assets January 1, 2007 	                  11              $13,947,217                $12,447,274                 $1,499,943

      Transferred Prepayment Credits            ?d                        0                    (93,186)                    93,186
      Employer Contributions                    JL                5,445,000                  5,320,543                    124,457
      Employee Contributions                    1L                  571,691                    520,342                     51,349
      Investment Earnings                       ?!.                 892,299                    796,935                     95,364
      Benefit Payments                          QL               (3,962,630)                (3,550,614)                  (412,016)
      Expenses                                  11                  (46,789)                   (41,788)                    (5,001)
      Transfers                                 ~                         0                    117,256                   (117,256)

      Assets January I, 2008 	                                   16,846,788                 15,516,762                  1,330,026

      Transferred Prepayment Credits                                      0                   (277,093)                   277,093
      Employer Contributions                                      2,092,456                  2,092,456                           0
      Employee Contributions                                        604,216                    566,959                     37,257
      Investment Earnings                                           603,826                    550,096                      53,730
      Benefit Payments                                           (1,382,221 )               (1,205,075)                  (177,146)
      Expenses                                                      (52,491 )                  (47,820)                     (4,671 )
      Transfers                                                           0                     43,768                    ( 43,768)



      Assets December 31, 2008                  9/              $18,712,574                $17,240,053                 $1,472,521
      Per COSVI                                10/              $18,712,574                $17,448,467                 $1,264,107
      Asset Variance                           111                       $0                 ($208,414)                  $208,414



FOOTNOTES

 1L 	 We determined the Medicare segment assets as of January 1,2007, based on our prior segmentation audit (A-07-08-00271)
      of Cooperativa de Seguros de Vida de Puerto Rico (COSVI). The amounts shown for the "Other" segment represent the
      difference between the Total Company and the Medicare segment. All pension assets are shown at market value.

 ?d   Prepayment credits represent funds available to satisfY future funding requirements and are applied to future funding 

      requirements before current year contributions in order to reduce interest costs to the Federal Government. Prepayment 

      credits are transferred to the Medicare segment as needed to cover funding requirements. 


 JL 	 We obtained Total    Company employer contribution amounts from the actuarial valuation reports and Department of
      Labor/Internal Revenue Service Forms 5500. We allocated Total Company contributions to the Medicare segment based on
      the ratio of the Medicare segment funding target divided by the Total Company funding target. Contributions in excess of
      the funding targets were treated as prepayment credits and accounted for in the "Other" segment until needed to fund pension
      costs in the future.

 1L   We obtained Total Company employee contribution amounts from the Department of Labor/Internal Revenue Service Forms
      5500. We obtained the Medicare segment amounts from annual employee contribution data provided by COSVI. The
      Medicare segment amounts were based upon the audited Medicare segment participants as of the beginning of the year.
                                                                                                                           Page 2 of2

 ~   We
      	 obtained investment earnings from Department of LaborlInternal Revenue Service Forms 5500. We allocated investment
     earnings based on the ratio of the segment's weighted average value (W AV) of assets to total company WAV of assets as
     required by the Cost Accounting Standards (CAS).

 QL We accepted the Medicare segment benefit payments presented by COSY!.

 li We allocated administrative expenses to the Medicare segment in proportion to investment earnings.

 ~   We
      	 identified participant transfers between segments by comparing valuation data files prepared by COSVI's customary 

     actuarial consulting firm. Asset transfers were equal to the actuarial liability determined under the accrued benefit cost 

     method in accordance with the CAS. 


 2!.. 	 Using the audited Medicare segment participants and the employee contribution data provided by COSVI, the Medicare 

     segment assets include $668,840 of assets attributable to employee mandatory contributions. 


101 	We obtained total asset amounts as of December 31, 2008, from docurnents prepared by COSVl's engaged actuarial
     consulting firm.

ill The asset variance represents the difference between our calculation of Medicare segment assets and COSVI's calculation of
     Medicare segment assets.
        APPENDIX B: CALCULATION OF AGGREGATE MEDICARE PERCENTAGE 


                       Medicare Segment
                        Pension Costs               Total Medicare
                         Charged to                Segment Pension                Medicare Aggregate
    Fiscal Year           Medicare                       Costs                       Percentage
         1/                  (A)                          (B)                         (AlB) 21
        1988                       $2,275                       $2,275
        1989                       19,517                       19,517
       1990                        62,351                       62,351
        1991                       53,966                       53,966
       1992                        52,989                       52,989
       1993                        89,198                       89,198
       1994                        96,944                       96,944
       1995                        96,955                       96,955
       1996                        99,307                       99,307
        1997                      114,381                      114,381
       1998                       119,204                      119,204
        1999                      119,411                      119,411
       2000                       132,070                      132,070
       2001                       125,034                      125,034
       2002                       127,562                      127,562
       2003                       119,772                      119,772
       2004                       138,287                      l38,287
       2005                       159,165                      159,165
       2006                       201,422                      201,422
       2007                      216,435                       216,435
       2008                       262,132                      262,132
       2009                        69,273                       69,273

       Total                     $2,477,650                 $2,477,650                             100%



FOOTNOTES

 lL We obtained information for fiscal years (FY) 1988 - 1995 from our prior pension costs claimed audit
   (A-07-09-00317), and information for FYs 1996 - 2006 from our prior pension costs claimed audit
   (A-07-08-00272). We obtained information for FYs 2007 - 2009 during our current pension costs
   claimed audit (A-07-1 0-00342).

 21 	 We calculated the aggregate Medicare percentage by dividing the Medicare segment pension costs
      charged to Medicare by the total Medicare segment pension costs, pursuant to Cost Accounting
     Standard 413.
                  APPENDIX C: AUDITEE COMMENTS 





December 16, 2010


Mr. Patrick J. Cogley
Regional Inspector General
for Audit Services
OffIce of Inspector General
Office of Audit Services, Region VII
601 East 12th Street Room 0429
Kansas City, MO 64106

                                                          Re: A-07-10-00342
                                                              A-07-10-OO343
Dear Mr. Cogley:

        We are submitting our written comments to the U.S. Department of Health and Human
Services, Office of the Inspector General (DIG) draft reports dated November 17, 2010.

    1. 	 A·07-10-G0342 Review of Pension Cost claimed for Medicare Reimbursement by
         Cooperativa de Seguros de Vida de Puerto Rico for fiscal Years 2007 through 2009. COSVI did
         not claim $140,010 of allowable pension cost for the period.

         We agree with the recommendation of Increasing our FACP by $140,010 nevertheless based
        on previous recommendation from CMS the adjustment will be subject to the final
        settlement determination after summarizing all audits reports which are pending review.

    2. 	 A-G7-1O-G0343 Review of the Qualified Pension Plan at Cooperativa de Seguros de Vida de
         Puerto Rico a Terminated Medicare contractor for the Period January 1, 2007 to December
         31,2008.

        We concur with the recommendation of increasing the segment asset as of December 31,
        2008 by $208,414 and decreasing the share of the Medicare segment's excess pension
        liability by $208,277, recognizing $455,718 as the Medicare portion. We will refer the
        recommendation to our actuary. We anticipate the final settlement will result in an amount
        due COSVI in the amount of $455,718.

Thank you for the opportunity to comment on the reports.




c: Stuart Brown

      Ave. America Miranda #400. Expreso Las Americas, Villa Nevarez, Rio Piedras, Puerto Rico 00927 

             PO BOX 363428, 5an Juan, Puerto Rico 00936-3428 - Telefono (7871 751·5656 

                                             www.cosvi.com 

